National Aeronautics and
Space Administration

Office of Inspector General
Washington, DC 20546-0001



                                                  April 28, 2008

TO:                Associate Administrator for Program Analysis and Evaluation
                   Chief Engineer
                   General Counsel
                   Assistant Administrator for External Relations

FROM:              Assistant Inspector General for Auditing

SUBJECT:           Final Memorandum on the Standing Review Board for the Orion Crew
                   Exploration Vehicle Project (Report No. IG-08-018; Assignment
                   No. A-07-011-00)


During the Office of Inspector General (OIG) audit of the Orion Crew Exploration
Vehicle (Orion) Project, we identified an issue concerning the establishment of the Orion
Standing Review Board (SRB), which was tasked to provide independent assessments of
the Project during its life cycle. (See Enclosure 1 for details on this report’s scope and
methodology.)

Executive Summary
NASA did not establish the Orion SRB in accordance with Federal law or NASA
guidance. The Orion SRB meets the Federal Advisory Committee Act1 (FACA)
definition of an advisory committee. Although FACA committees must be established in
accordance with FACA and NASA Policy Directive (NPD) 1150.11, “Federal Advisory
Committee Act Committees,” September 22, 2004, the Orion SRB was not. Had NASA
initially recognized the Orion SRB as an advisory committee subject to FACA, NASA’s
ethics process associated with advisory committee participation would have been
triggered, resulting in a focus on board member independence and conflict of interest
resolution. Aside from these considerations, independence is a requirement for SRB
participation; however, of the 19 members of the Orion SRB, 6 (32 percent) were not
independent of the Orion Project as required by NASA Procedural Requirements
(NPR) 7120.5D, “NASA Space Flight Program and Project Management Requirements,”
March 6, 2007.

The Orion SRB’s purpose, responsibilities, and membership met the definition and
characteristics of a committee that should be established under FACA. FACA generally
applies to committees that (1) are established by a Federal official, (2) include at least one

1
    Title 5, United States Code (5 U.S.C.) Appendix, Sections 1–16, the Federal Advisory Committee
    Act (1972), as amended.
                                                                                          2



non-Federal Government employee, and (3) are responsible for providing advice and
recommendations to the agency. Because the Orion SRB established by NASA included
15 non-Federal Government employees, and its primary responsibility was to provide
NASA management an advisory opinion of the Orion Project’s success in meeting
technical, schedule, and cost-related milestones, we conducted further analysis of FACA
and FACA-related case law to consider FACA’s applicability to the Orion SRB. Based
on that analysis, we believe that FACA did apply to the Orion SRB; therefore, the SRB
should have been established and operated in accordance with FACA. NPD 1150.11
requires that NASA employees coordinate with the Office of the General Counsel (OGC)
when committees or teams involving non-NASA personnel are established to ensure that
the Agency complies with FACA if it is applicable. There was no coordination with the
OGC when the Orion SRB was established.

We determined that six of the Orion SRB members, including the Chair, were not
independent of the Orion Project, as required by NPR 7120.5D. The NPR requires
independence to ensure that the SRB can provide an impartial, unbiased opinion of the
Project’s success. Those six Orion SRB members were employees (and in four cases
were also stockholders) of companies having contracts for Orion work. Because of the
employee/stockholder status, those members had a vested interest in the Project’s
success, making them unsuited to serve on an advisory board that emphasizes
“objectivity and independence.” In addition, the employee/stockholder status created an
organizational conflict of interest (as defined in the Federal Acquisition Regulation
[FAR]) between the members’ employers and NASA.

The issue of independence and conflict of interest is key to our concerns. Had the OGC
been coordinated with, as required by NPD 1150.11, we believe that the Orion SRB
would have been initially recognized as an advisory committee subject to FACA. For the
SRB to proceed consistent with requirements, NASA’s ethics process, as associated with
advisory committee participation, would have been triggered with a focus on board
member independence and conflict of interest resolution. The SRB members, pursuant to
NASA practice, would likely have been deemed to be Special Government Employees
(SGEs). As such, the Orion SRB members would have been subject to more robust
financial disclosure and the criminal conflict of interest provisions of Title 18, United
States Code, Section 208 (18 U.S.C. 208).

Under the ethics regime for Federal employees, conflicts of interest are identified and
resolved, sometimes through waivers that examine the extent of the conflicts and, in the
case of SGEs, by weighing the conflict against the Government’s need for the services of
the particular SGE. Without the rigorous and definitive conflict of interest resolution
process provided under the ethics regime for Federal employees, the Agency examined
the conflicts of interests of the SRB members in the context of NPR 7120.5D and without
the advice of Agency counsel.

Our February 29, 2008, draft of this memorandum recommended that the Associate
Administrator for Program Analysis and Evaluation (PA&E), in coordination with the
OGC and the Office of the Chief Engineer, suspend the involvement of the six SRB
                                                                                             3



members that we found to be not independent of the Project from further SRB activities
until an evaluation of the legality and propriety of the participation of these individuals in
the SRB is concluded. That evaluation should include an analysis of whether the Orion
SRB should be reorganized under FACA and whether the ethical rules for SGEs are
implicated. To ensure that the lessons from the issues associated with the establishment
of the Orion SRB are incorporated into NASA practice more generally, we recommended
that the Agency evaluate the purpose, roles, responsibilities, and membership of SRBs to
determine the optimum approach for accomplishing the SRB mission while ensuring
compliance with all applicable Federal laws and NASA guidance. Based on the
evaluation results, the Agency should revise NPR 7120.5D and NASA’s draft
SRB Handbook to reflect any revised SRB roles, responsibilities, and membership
requirements. Lastly, to ensure that the Agency is aware of committees that may be
required to comply with FACA, we recommended that the Assistant Administrator for
External Relations have NASA organizations annually identify any new committees that
include non-NASA personnel and ensure that, if FACA applies, those committees
comply with its requirements.

Management’s Comments and OIG Response. Management submitted two sets of
comments in response to the draft of this memorandum. In the first set of comments (see
Enclosure 4), the Associate Administrator for PA&E requested that we revise several
statements concerning the participation of the Independent Program Assessment Office
(IPAO) in nominating the SRB members, IPAO’s authority to revise SRB reports, and
the IPAO Director’s position on NPD 1150.11 applicability. Although we did not
specifically state in the draft memorandum that IPAO had the authority to revise an SRB
report, we deleted our statement concerning IPAO involvement in the SRB reporting
process because it did not affect our finding. We made no additional revisions as we had
significant support for our statements.

In the second set of comments (see Enclosure 5), the Associate Administrator for PA&E
did not find it necessary to suspend the six SRB members in response to our recommen-
dation, given that steps had been taken to ensure the legality and propriety of the SRB
membership. In response to our recommendation that the Agency analyze whether the
SRB should be reorganized under FACA and its members subject to the ethical rules for
SGEs, the Associate Administrator stated that the analysis was complete and that the
Orion SRB would not be subject to FACA nor would its members be subject to SGE
ethical rules because the members had been advised to render individual as opposed to
consensus advice. Regarding our recommendation to conduct a rigorous analysis of the
SRB members’ independence, the Associate Administrator stated that analysis is ongoing
and that SRB activities are being redirected in order to follow the new Agency plan for
conducting independent assessments. The Agency will reevaluate the independence
status of each Orion SRB member once the Office of PA&E completes its revision of the
SRB independence standards.

We consider management’s comments on these recommendations to be nonresponsive.
We understand that the SRB independence standards are under revision and that the
Orion SRB members will be subject to those revised standards; however, the Associate
                                                                                           4



Administrator for PA&E did not provide specific information concerning the six Orion
SRB members and the efforts taken to ensure the “legality and propriety of their
membership.” Until such information is provided and organizational conflicts of
interest are adequately mitigated, the six Orion SRB members should be suspended from
participating in SRB activities. Regarding FACA applicability to the Orion SRB, while
rendering individual rather than consensus advice is an important factor, it is not the only
factor considered in determining FACA applicability. The formality and structure of the
SRB, the interaction of its members, and the political legitimacy of the advice are all
factors in that determination. To ensure that the Agency is FACA-compliant,
management needs to provide additional information as to how the Orion SRB will be
structured, organized, and managed. The comments should also address the potential
impact of not having the SRB provide a consensus opinion. We request that the
Associate Administrator for PA&E provide additional comments in response to our final
memorandum by May 28, 2008.

The Associate Administrator concurred with our recommendations to conduct an
evaluation to determine the optimum approach for accomplishing the SRB mission while
ensuring compliance with all applicable Federal laws and NASA guidance and, based on
the evaluation results, to update NPR 7120.5D and the SRB Handbook to reflect any
revised SRB roles, responsibilities, and membership requirements. The Associate
Administrator stated that the Agency is defining SRB implementation approaches to
ensure compliance with Federal and NASA guidance and that NPR 7120.5D and the
SRB Handbook would be revised to reflect any changes concerning the SRB. He also
stated that the Orion SRB would be operated in compliance with that revised guidance.
The Assistant Administrator for External Relations concurred with our recommendation
to identify NASA committees that may meet the definition of a FACA advisory
committee, stating that he will work with Agency officials to identify NASA-sponsored
committees and ensure that the committees comply with FACA, if required.

We consider management’s comments responsive to these recommendations. The
recommendations are resolved and will be closed upon completion and verification of
management’s corrective action.

In response to the draft of this report, the Associate Administrator for PA&E stated that
the memorandum and management comments were predecisional and, therefore, should
be subject to exemption (b)(5) of the Freedom of Information Act. However, our audit
report is a final document representing a final decision of this office. Management’s
response, in our view, reflects firm commitments (decisions) toward future action.
Specific options and positions for how the future action will be executed are not specified
in these documents. We declined to invoke the deliberate process privilege and,
therefore, under the authority of Title 14, Code of Federal Regulations, Section 1206.504,
“Inspector General,” this report, and management’s response, is publicly available in its
entirety.
                                                                                                         5



Background
NPR 7120.5D requires NASA space flight projects to establish an SRB, whose role is to
conduct a series of independent reviews throughout a project’s life cycle. During the
reviews, the SRB assesses and reports on the adequacy and credibility of the project’s
technical and management approach, schedule, resources, cost, and risk; the project’s
compliance with Agency management and systems engineering guidance; and the
project’s readiness to proceed to the next life-cycle phase. (See Enclosure 2 for a space
flight project’s life cycle.)

Orion SRB members were nominated by NASA’s IPAO and appointed by the project’s
convening authority. 2 According to NPR 7120.5D, SRB members are chosen based on
their management, technical, and safety and mission assurance expertise; their
objectivity; and their ability to make a broad assessment of space flight projects. To
ensure the objectivity of the SRB, NPR 7120.5D requires that the members be
independent of the project under review; that is, none of the members should have a stake
in the outcome of any of the life-cycle reviews or in the project itself. The number of
SRB members differs based on a project’s complexity, but each SRB has a single
chairperson and a NASA Review Manager, who assists the chairperson in interfacing
with the NASA project manager. Although IPAO may augment a particular SRB with
specialized reviewers when needed, the concept is to have the same core membership for
the duration of the project. Because the SRB is solely an advisory board, NASA
management is not required to act on the SRB’s findings and recommendations; however,
NASA management must consider the SRB report when deciding whether the project
should proceed to the next life-cycle phase.

NPR 7120.5D is NASA’s primary guidance concerning SRB roles and responsibilities,
and IPAO developed a draft SRB Handbook (version 1.0, August 1, 2007) to supplement
that guidance. The Handbook contains guidelines for SRBs, such as their setup, roles,
and responsibilities, and the processes and products needed to support the Agency’s
implementation of its integrated independent life-cycle review process. As of April 2008,
the draft SRB Handbook was undergoing Agency review and will be released once that
review is completed and the Handbook is approved for release.

Orion SRB Not Compliant with FACA
Although the Orion SRB met the definition of a committee that should be established and
operated in accordance with FACA, the Agency did not require the SRB to comply with
FACA requirements. FACA generally applies to committees that (1) are established by a
Federal official, (2) include at least one non-Federal Government employee, and (3) are
responsible for providing advice and recommendations to the agency.

2
    Convening authorities vary with the significance of the program or project under review. For the Orion
    Project, the convening authority included the NASA Associate Administrator; the NASA Chief Engineer;
    the Associate Administrator for Exploration Systems; the Associate Administrator for PA&E; and the
    Director, Johnson Space Center.
                                                                                                              6



FACA. FACA was enacted in 1972 to formalize the process for establishing, operating,
and terminating advisory committees that are formed to provide expert advice to
Executive Branch agencies concerning Federal policies and programs. The membership
of these advisory committees includes non-Federal Government employees, which
provides a unique opportunity for the public to participate actively in the Federal
Government’s decision-making process. Under FACA, an advisory committee can be
created only when it is essential to an agency’s performance and is approved by
high-level agency officials. 3 Once approved by the agency, the committee must prepare
a charter outlining the committee’s mission and specific duties, which is forwarded to
the General Services Administration 4 for final review. Following a required public
notification period, and filing of the charter with Congress, the committee may begin
operation. To maintain transparency, an advisory committee must publish a notice of its
meetings in the Federal Register, open its meetings to the public, and keep detailed
minutes of each meeting. FACA also requires that a designated officer or employee of
the Federal Government call or approve meetings, chair or attend each of the committee’s
meetings, and make detailed transcripts of the meetings available to the public.

To ensure that FACA applicability is appropriately considered for NASA committees,
NPD 1150.11 requires NASA personnel to coordinate with the OGC prior to establishing
committees that will include non-NASA personnel. Once the OGC renders the opinion
that FACA is applicable, the advisory committee must operate in a manner fully
consistent with the provisions of the Act.

Applicability of FACA to the Orion SRB. To determine whether FACA was applicable
to the Orion SRB, we compared FACA criteria as stated in the Act with specifications for
an SRB stated in NPR 7120.5D, as shown in the following table.




3
    As of April 2008, NASA had four approved advisory committees: the Aerospace Safety Advisory Panel
    (congressionally mandated); the NASA Advisory Council (Agency-initiated); the International Space
    Station Advisory Committee (Agency-initiated); and the National Space-Based Positioning, Navigation,
    and Timing Advisory Board (Presidential mandate).
4
    The General Services Administration is responsible for governmental oversight of advisory committees.
    As part of that responsibility, the General Services Administration issues administrative guidelines for the
    committees and assists other agencies in implementing and interpreting FACA.
                                                                                            7



                               FACA Applicability to the Orion SRB
                                                                                   Meets FACA
         FACA Criteria                            SRB Specification                 Criteria?
 Board is advisory, not              NPR 7120.5D identifies the SRB’s role as         Yes
 operational, in nature.             advisory to projects. The SRB does not
                                     make or implement decisions, nor does it
                                     have authority over project content. The
                                     board provides recommendations to the
                                     decision authority.
 Board includes at least one         Of the 19 SRB members, 15 were                   Yes
 non-Federal employee.               non-Federal employees.
 Board was established by the        The SRB members were nominated by                Yes
 Agency.                             IPAO and approved by the NASA
                                     convening authorities.
 Agency utilizes the board.          The convening authorities set the terms for      Yes
                                     the board’s reviews and reporting.
 Board is not exempt by the Act.     SRB was established by NASA and is used          Yes
 Specifically, the board should      solely by NASA.
 not be established or utilized by
 the Central Intelligence Agency
 or the Federal Reserve System.
 Nor can it be a State or local
 social board.


The results of our comparison indicated that the Orion SRB was subject to FACA. To
further support FACA applicability, we reviewed applicable case law, specifically,

   •   5 Op. Off. Legal Counsel 283, 285 (1981);

   •   Sofamor Danek Group v. Gaus, 61 F.3d 929 (D.C. Cir. 1995);

   •   Public Citizen v. United States Department of Justice, 109 S.Ct. 2558 (1989);

   •   Food Chemical News v. Young, 900 F.2d 328 (D.C. Cir. 1990); and

   •   Byrd v. EPA, 174 F. 3d. 239 (D.C. Cir. 1999).

The facts indicate that the Orion SRB was “established or utilized” as prescribed by case
law, and the SRB arguably fits the definition of a board operating in such a manner
amenable to the strict management of NASA officials. As such, the facts and
circumstances surrounding the establishment of the Orion SRB indicate that it is in
violation of FACA.

OGC Coordination. The Orion SRB was not identified as an advisory committee
subject to FACA because IPAO convened the SRB without first coordinating with the
OGC as required by NPD 1150.11. The IPAO Director stated that since the Orion SRB
was established in accordance with NPR 7120.5D, the IPAO determined that
                                                                                                             8



NPD 1150.11 was not a “necessary reference” and, therefore, did not comply with its
requirements. We disagree with the IPAO determination because the applicability of
NPR 7120.5D to a project does not make that project exempt from other NPD or
NPR requirements. NPD 1150.11 states that “all employees are responsible for
coordinating with the Office of the General Counsel regarding the establishment of
committees or teams involving non-NASA personnel.” At a minimum, the IPAO
Director should have discussed the issue with the OGC, which would have provided
the OGC an opportunity to render a decision concerning FACA’s applicability to the
Orion SRB.

SRB Members Not Independent of the Orion Project
Of the Orion SRB’s 19 members, we determined that 6 (32 percent) were not
independent of the Orion Project, as required by NPR 7120.5D and the draft
SRB Handbook. Specifically, the six members were employees of NASA contractors
with an interest in, or contract with, NASA’s Orion Project or its parent program—the
Constellation Program. 5 Because a lack of independence could result in violation of
Federal conflict of interest rules under 18 U.S.C. 208 or the FAR, we also evaluated
whether either the statute or the regulation applied to this situation.

Independence Requirement. NPR 7120.5D requires that SRB members be independent
of the project under review and states that SRB members should be “unbiased and outside
the advocacy chain” of the project. The SRB Handbook further emphasizes the
importance of independence by stating that in “all matters relating to SRB reviews, the
board members should be free from personal, external, and organizational impairments to
independence, and should avoid the appearance of such impairments of independence.”
The Handbook states that this is especially important when selecting the SRB Chair in
order to minimize the potential for conflict of interest situations, which is paramount
when seeking an independent and unbiased opinion of a project’s performance.

IPAO Determination of Independence. To identify potential independence
impairments or conflict of interest situations, IPAO required each of the candidate Orion
SRB members to complete the “Personal, External, and Organizational Independence,
and Political Influence Self-Assessment,” September 28, 2005 (see Enclosure 3). In the
self-assessment, each candidate provided yes or no answers to questions in seven
categories, including financial interests, undue influence, and employment. A “yes”
answer indicated a potential impairment to independence and the candidate was required
to provide additional information. For example, a question from the “Current or Former
Employee” section asked, “Have you ever directly worked for the program or project
being reviewed or been an employee of a contractor that receives funding from the

5
    The Constellation Program manages, develops, and integrates the flight and ground infrastructure and
    systems required to enable post-Space Shuttle access to the International Space Station and for future
    crewed missions to the Moon, Mars, and beyond. The Orion Project is one of six projects under the
    Constellation Program, which also includes the Crew Launch Vehicle, Ground Operations, Mission
    Operations, Extra-Vehicular Activity, and the Lunar Lander projects.
                                                                                                           9



program or project being reviewed?” If the candidate answered yes to that question, he
or she then had to provide details of that employment. That detailed information was
used in conjunction with the self-assessment to determine the candidate’s fitness for SRB
participation.

For the Orion Project, the IPAO determination of the candidates’ independence was
based solely on a review of the self-assessments. Based on that review, IPAO determined
that each candidate was independent in fact and appearance. In making that
determination, IPAO did not seek or obtain assistance from NASA’s OGC.

OIG Determination of Independence. To evaluate IPAO’s independence
determinations, we reviewed the self-assessments for the Chair and each SRB member. 6
We considered the applicability of independence requirements expressed in
NPR 7120.5D. Our review indicated that neither the SRB Chair nor five of the other
members were independent of the Orion Project, as defined in the NPR.

        SRB Chair. On his self-assessment, the SRB Chair provided a yes response in
the section on “Conflicting Financial Interests” and provided the detailed information
concerning his employment, as requested. The Chair stated that he was an employee and
stockholder of Science Applications International Corporation (SAIC) and noted that
SAIC receives funding from the Orion Project for engineering and safety-related services.
However, the Chair also stated that he had full confidence that a conflict of interest, in
appearance or in fact, did not exist for the following reasons:

           •   His employer, SAIC, provides only technical services to NASA and is not in
               any role that makes programmatic, funding, or technical decisions.

           •   He signed a Nondisclosure Statement that created a “firewall” between him
               and SAIC’s work on the Orion Project.

           •   He had never been employed by an SAIC organization performing work on
               the Orion Project.

           •   SAIC management will not allow him to discuss Orion-related work with the
               SAIC employees performing that work.

       We do not consider the SRB Chair’s assurances as adequate to remedy his
independence impairment. We reviewed the Chair’s self-assessment form and detailed
information; the IPAO’s nomination letter to the convening authority; and SAIC’s
organizational conflict of interest plan, “OCI Mitigation Plan (Revised),” September 4,




6
    The independence evaluation was limited by the scope of the self-assessment forms, which do not provide
    the level of detailed information required for conflict of interest reviews of Federal employees or those
    serving on Federal advisory committees.
                                                                                                       10



2007. 7 We also interviewed IPAO officials to determine the nature and depth of their
respective reviews for independence impairments, and we interviewed the Langley
Research Center’s attorney-advisor who routinely advises IPAO. We concluded that the
Chair’s position as a senior vice president at SAIC and a SAIC stockholder renders him
unsuited to serve as Chair on an advisory board that emphasizes “objectivity and
independence.” The attorney-advisor agreed with our conclusions, stating that had IPAO
requested his advice, he would have considered the Chair’s self-assessment as
problematic and that it represented, at a minimum, the appearance of a conflict of
interest.

        SRB Members. Review of the 14 self-assessments 8 for the non-Federal
Government employees indicated that 5 of the SRB members were employed by
companies with an interest in the Orion Project. Two SRB members were employed by,
and stockholders in, SAIC. Another SRB member was employed by, and held stock in,
Lockheed Martin Corporation. Lockheed Martin is NASA’s prime contractor for the
design, development, testing, and evaluation of the Orion crew exploration vehicle. The
fourth SRB member was employed by Muniz Engineering Incorporated, which provides
engineering support services to the Orion Project, and the fifth member was employed by
Gray Research, which provides launch abort system support to the Orion Project. With
the exception of the Gray Research employee, the SRB members noted their employment
status with a contractor that receives funding from the project under review; those who
were stockholders noted that fact also. Because the Gray Research employee did not
disclose that he was an employee of a contractor receiving funding from the Orion
Project, IPAO did not identify him as such in the IPAO nomination letter to the
convening authorities. We learned that Gray Research provided support to the Orion
Project as part of a Center service support contract when we validated with NASA
contracting officers whether any SRB members’ employers had Orion-related contracts.

        We identified no evidence on the self-assessments or other documentation that
would remedy the impairments to independence for the five SRB members. While the
SAIC employees’ assurances were identical to the SRB Chair’s, the other three SRB
members did not provide any mitigation plans or assurances to ensure that a conflict
would not exist in appearance and in fact. To assess the SRB members’ potential conflict
of interest situations, we reviewed the same documentation as for the Chair, and we
interviewed IPAO officials to determine the nature and depth of their respective reviews
for independence impairments. We concluded that because the five SRB members were
employees of contractors with an interest in or contract with NASA’s Orion Project, and
their assurances were either identical to the Chair’s or nonexistent, their membership was
also problematic and, at a minimum, represented the same appearance of a conflict of
interest as the SRB Chair.

7
    The SRB members were employed as consultants under a blanket purchase agreement with SAIC. SAIC
    and NASA developed the OCI Mitigation Plan to ensure that the work accomplished under the blanket
    purchase agreement was unbiased and would not benefit SAIC or any of the SRB members.
8
    We limited our review to the non-Federal SRB members’ self-assessments; four of the members were
    NASA employees and were not required to complete the self-assessment.
                                                                                                       11



Potential Conflict of Interest. Conflicts of interest of Federal employees and
Government contractors are addressed, respectively, in 18 U.S.C. 208 and FAR
Subpart 9.5, “Organizational and Consultant Conflicts of Interest.” Title 18 states that an
officer or employee of any independent agency of the United States, including SGEs,
would be subject to the penalties set forth in the law. FAR Subpart 9.505-3, “Providing
Evaluation Services,” states: “Contracts for the evaluation of offers for products or
services shall not be awarded to a contractor that will evaluate its own offers for products
or services, or those of a competitor, without proper safeguards to ensure objectivity to
protect the Government’s interests.”

        Conflict of Interest under 18 U.S.C. 208. In determining that the conflict
provisions of Title 18 were not potentially applicable to the SRB members, we reviewed
the NASA contract and task orders by which the SRB members were employed;
reviewed the OCI Mitigation Plan; and spoke with officials in the Office of Government
Ethics, a Federal agency. Because the SRB members are not Federal employees, the
conflict of interest rules encompassed in 18 U.S.C. 208 do not apply.9 Significantly, had
the Orion SRB been deemed a FACA committee from the outset, the SRB members
would have, pursuant to NASA practice, properly been made SGEs. 10 SGEs serving on
FACA committees are subject to 18 U.S.C. 208 and are eligible for a waiver. The waiver
for a conflict under 18 U.S.C. 208(b)(3) is instructive because it specifically allows the
Government to obtain the desired services from an SGE in the event of a conflict:
           [I]n the case of a special Government employee serving on an advisory committee
           within the meaning of the Federal Advisory Committee Act (including an individual
           being considered for an appointment to such a position), the official responsible for
           the employee’s appointment, after review of the financial disclosure report filed by
           the individual pursuant to the Ethics in Government Act of 1978, certifies in writing
           that the need for the individual’s services outweighs the potential for a conflict of
           interest created by the financial interest involved . . .

Without the rigorous and definitive conflict of interest resolution process provided under
the ethics regime for Federal employees, the Agency examined the conflicts of interest of
the SRB members only in the context of NPR 7120.5D when making its determination.

       Conflict of Interest under the FAR. To determine the applicability of the FAR,
we reviewed the member’s self-assessments and the OCI Mitigation Plan. The OCI
Mitigation Plan incorporates by reference the FAR and NASA FAR Supplement, stating:
           As set forth in the Federal Acquisition Regulation (FAR) Part 9.5 and in the NASA
           FAR Supplement (NFS) at 1809.507-2, organizational conflicts of interest (OCI)
           occur when contractor personnel are placed in positions in which their individual


9
    The Agency employed the SRB members as consultants under the SAIC blanket purchase agreement and
    not as Federal employees or SGEs. Because the SRB members are contract employees rather than
    Federal employees, the ethics rules embodied in 18 U.S.C. 208 do not apply.
10
     Whether FACA committee members must be classified as SGEs involves a level of scrutiny properly
     exercised by the OGC. However, if FACA is triggered and board members are deemed SGEs, those
     members would be subject to the ethical restrictions embodied in 18 U.S.C. 208.
                                                                                                    12


            judgment may become biased or when a contractor may gain a competitive advantage
            by having access to another contractor’s proprietary data, processes or reviewing its
            performance. [emphasis added]

The IPAO Director cited the “firewalls” and non-disclosure agreements as measures that
would mitigate potential organizational conflicts of interest of the SRB members.
However, those measures are designed to address the compromise of information only;
they do not remedy personal bias. Therefore, the personal biases of the SRB Chair and
its members have not been sufficiently mitigated.

Because the OCI Mitigation Plan covered the formation of this SRB, and the Plan
incorporates by reference the FAR 9.5 clause, the SRB Chair and the five SRB members’
conflicts are, therefore, imputed to their contract employers and represent an
organizational conflict of interest in violation of the FAR.

Conclusion
SRBs are designed to provide NASA management access to an impartial, yet
knowledgeable, advisory opinion of a project’s success in meeting technical, schedule,
and cost-related milestones. According to an Office of PA&E 11 document, “Why an
Independent Review—Why a Standing Review Board” (undated), having independent
experts conduct reviews provides a unique view that may have been overlooked as a
consequence of the project’s close involvement with the ongoing project work. To
provide an impartial opinion to NASA management, SRB members should be
independent of the project. However, because the Orion Project and the Constellation
Program are such extensive efforts, it is difficult for the Agency to identify employees
who are technically qualified to serve on the SRBs and who are also independent of the
program or project. As a result, the Agency relies on non-Federal Government
employees to serve as SRB members, which, in part, resulted in the Orion SRB being
subject to FACA requirements.

The four NASA advisory committees that are FACA compliant were established
primarily because of public interest in the subjects covered by the committees. The
SRB concept was established primarily to ensure that NASA management considered an
impartial opinion when measuring a project’s progress and readiness to move to the next
life-cycle phase. We agree with that concept and believe that the Orion SRB provides a
unique perspective from which to judge the Project’s progress. However, NASA needs
to determine the optimum structure for the SRB to ensure that it can accomplish its
mission while also remaining compliant with any applicable Federal laws and NASA
guidance.




11
     The Office of PA&E is the parent organization of IPAO.
                                                                                                      13



Management Action
In August 2007, while we were conducting our audit, NASA’s OGC became aware that
FACA might apply to Constellation Program SRBs 12 after receiving a copy of the draft
SRB Handbook. The issue was informally discussed during the September 2007 Agency
Program Management Council meeting, where it was decided that the OGC and the
Office of PA&E should review the issue. As part of that review, the OGC spoke with
other Federal agencies as to how they handle similar situations and studied restructuring
options for the SRBs that would allow non-Federal Government employees to participate
without triggering FACA. The results of the review were reflected in management’s
comments on Recommendation 1.b, in which we recommended, in part, that management
conduct an analysis of whether the Orion SRB should be reorganized under FACA.

Management’s Comments on the Finding and Evaluation of Management’s
 Comments
Management’s Comments on the Finding. In his first set of comments (see
Enclosure 4), the Associate Administrator for PA&E requested that we revise the
memorandum to state that the convening authorities, not IPAO, were responsible for
nominating and appointing the SRB members and that IPAO did not have the authority to
revise an SRB report. The Associate Administrator also requested that we revise the
IPAO Director’s statement concerning the applicability of NPD 1150.11 to the
Orion SRB.

In his second set of comments (see Enclosure 5), the Associate Administrator stated that
this memorandum and management comments were predecisional and, therefore, should
be subject to exemption (b)(5) of the Freedom of Information Act.

Evaluation of Management’s Comments. Although we did not specifically state in the
draft memorandum that IPAO had the authority to revise an SRB report, we deleted our
statement concerning IPAO involvement in the reporting process because it did not affect
our finding. We did not revise the memorandum to state that the convening authorities
were responsible for nominating the Orion SRB members because the nomination letter
clearly indicates that IPAO nominated the members. We also did not revise the IPAO
Director’s statement concerning the applicability of NPD 1150.11 because the statement
used in our memorandum was a direct quote from the Director.

Regarding management’s statement that this final report should be subject to
exemption (b)(5) of the Freedom of Information Act, our audit report is a final document
representing a final decision of this office. Management’s response, in our view, reflects
firm commitments (decisions) toward future action. Specific options and positions for
how the future action will be executed are not specified in these documents. We declined
to invoke the deliberate process privilege and, therefore, under the authority of Title 14,

12
     In addition to the Orion SRB, the Constellation Program and its five other projects have SRBs.
                                                                                          14



Code of Federal Regulations, Section 1206.504, “Inspector General,” this report, and
management’s response, is publicly available in its entirety.

Recommendations, Management’s Response, and Evaluation of
 Management’s Response
Recommendation 1.a. The Associate Administrator for PA&E, in coordination with the
OGC and the Office of the Chief Engineer, should suspend the six Orion SRB members
that we determined were not independent of the Orion Project from involvement in
further SRB activities until an evaluation of the legality and propriety of their
membership is concluded.

   Management’s Response. The Associate Administrator for PA&E stated that
   suspension of the six Orion SRB members was unnecessary, as he has taken steps to
   ensure the legality and propriety of the Orion SRB membership. He also stated that
   the SRB independence standards are being revised and that the Orion SRB members
   would be subject to those revised standards. The Associate Administrator further
   stated that disbanding or partially disbanding the Orion SRB would adversely affect
   the SRB’s work and the Orion Project.

   Evaluation of Management’s Response. Management’s comments are
   nonresponsive. We recognize that the SRB provides a unique service that is
   important to the Orion Project; however, we believe that the six Orion SRB members
   should not participate in SRB activities until their organizational conflicts of interest
   can be adequately mitigated. We request that the Associate Administrator reconsider
   his position and provide additional comments on the final memorandum.

Recommendation 1.b. The Associate Administrator for PA&E, in coordination with the
OGC and the Office of the Chief Engineer, should evaluate the legality and propriety of
allowing non-independent members to serve on the Orion SRB; the evaluation should
include an analysis of whether the Orion SRB should be reorganized under FACA and
whether the ethical rules for SGEs are implicated.

   Management’s Response. The Associate Administrator for PA&E stated that this
   recommendation was already implemented because, after consultation with the OGC,
   it was concluded that the Orion SRB would no longer be subject to FACA because its
   members had been advised to render individual as opposed to consensus advice. The
   Associate Administrator further stated that the Orion SRB members were not SGEs
   and, therefore, not subject to the ethical rules for SGEs.

   Evaluation of Management’s Response. Management’s comments are
   nonresponsive. While rendering individual instead of consensus advice may appear
   to defeat FACA applicability, that applicability is not limited to how the advice is
   rendered. There are other factors, such as whether group interaction benefits the
                                                                                                       15



       process and the formality and structure of the group, that help determine whether
       FACA is triggered. 13

       The direction to the SRB members to render individual opinions rather than a
       consensus opinion is also contrary to how the SRB has operated to date. While
       we were provided no detail on how the SRB would actually operate under this
       new direction, it is counterintuitive that an SRB designed, organized, and operated
       in a collective manner can then be redirected to operate in a manner that is wholly
       inconsistent with its original purpose and design without having an adverse impact
       to the purpose and advantage of that design. The new direction to assure the
       individuality of SRB member participation also defeats the concept of “board.” In
       essence, it would no longer be a board but a group of individual advisors on specific
       topics, providing advice as though those topics were unrelated. Thus, the SRB’s
       ability to provide integrated conclusions would be lost.

       We request that management provide specific information as to how the SRB will be
       structured, organized, and managed to further distance itself from the requirements of
       FACA. The comments should also address the potential impact of not having the
       SRB provide a consensus opinion.

Recommendation 1.c. The Associate Administrator for PA&E, in coordination with the
OGC and the Office of the Chief Engineer, should conduct a rigorous analysis of the
independence status of each of the SRB members if the determination is made to
reorganize the Orion SRB to not implicate FACA.

       Management’s Response. The Associate Administrator concurred, stating that
       analysis is ongoing and that SRB activities are being redirected in order to follow
       the new Agency plan for conducting independent assessments. The Agency will
       reevaluate the independence status of each Orion SRB member once the Office of
       PA&E completes its revision of the SRB independence standards.

       Evaluation of Management’s Response. Management’s comments are
       nonresponsive. Delaying completion of the analysis of the SRB members’
       independence until the independence standards are revised does not the meet the
       intent of our recommendation, which was to ensure that a rigorous analysis of each
       member’s independence status is conducted. We note in this memorandum that the
       situation of the SRB Chair and five of its members created an organizational conflict
       of interest in violation of the FAR. Management should immediately mitigate the
       apparent conflict presented by the members’ financial interests in accordance with
       NASA’s ethics process and in conjunction with the OGC. Therefore, in response to
       the final memorandum, we request that the Associate Administrator provide specific
       information on how NASA plans to mitigate each member’s organizational conflict
       of interest.

13
     See Alcoa v. National Marine Service, 92 F.3d 902 (9th Cir. 1996) and Association of American
     Physicians and Surgeons v. Clinton, 302 U.S. App. D.C. 208, 997 F.2d 898, 913 (D.C. Cir. 1993).
                                                                                        16



Recommendation 1.d. The Associate Administrator for PA&E, in coordination with
the OGC and the Office of the Chief Engineer, should evaluate the purpose, roles, and
responsibilities of SRBs established under NPR 7120.5D to determine the optimum
approach for accomplishing the SRB mission while ensuring compliance with all
applicable Federal and NASA guidance.

   Management’s Response. The Associate Administrator concurred, stating that the
   Agency is defining SRB implementation approaches that are in compliance with
   guidance while meeting the independent assessment requirements established in
   NPR 7120.5D.

   Evaluation of Management’s Response. Management’s comments are responsive.
   The recommendation is resolved and will be closed upon completion and verification
   of management’s corrective action.

Recommendation 2. The Chief Engineer should revise NPR 7120.5D, if necessary, to
reflect any revised SRB roles, responsibilities, and membership requirements and to
include a more robust discussion of independence resolution.

   Management’s Response. The Associate Administrator for PA&E stated that the
   Office of the Chief Engineer concurs with the recommendation and that
   NPR 7120.5D will be updated to reflect changes to SRB roles, responsibilities, and
   independence requirements.

   Evaluation of Management’s Response. Management’s comments are responsive.
   The recommendation is resolved and will be closed upon completion and verification
   of management’s corrective action.

Recommendation 3.a. The Associate Administrator for PA&E should revise the draft
SRB Handbook, if necessary, to reflect any revised SRB roles, responsibilities, and
membership requirements and to include a more robust discussion of independence
resolution.

   Management’s Response. The Associate Administrator concurred and stated that
   the Agency will update the SRB Handbook to reflect changes related to the structure
   of SRBs and the evaluation of independence and nominations of SRB members.

   Evaluation of Management’s Response. Management’s comments are responsive.
   The recommendation is resolved and will be closed upon completion and verification
   of management’s corrective action.
                                                                                     17



Recommendation 3.b. The Associate Administrator for PA&E should direct IPAO, in
coordination with the OGC, to ensure that the Orion SRB is operating in accordance with
NPR 7120.5D and the draft SRB Handbook, based on any revisions to the NPR and the
SRB Handbook.

   Management’s Response. The Associate Administrator concurred and stated that
   IPAO was directed to operate the Orion SRB in accordance with approved Agency
   policies and applicable law. IPAO also provided the Orion SRB with a new direction
   to ensure that the SRB complies with Agency policies and FACA. PA&E is also
   working with the OGC and other Headquarters offices on appropriate updates to
   NPR 7120.5D and the SRB Handbook.

   Evaluation of Management’s Response. Management’s comments are responsive.
   The recommendation is resolved and will be closed upon completion and verification
   of management’s corrective action.

Recommendation 4. The Assistant Administrator for External Relations, in coordination
with the OGC, should develop and implement a plan to identify NASA committees that
may meet the definition of a FACA advisory committee and ensure that those committees
comply with FACA requirements, if necessary.

   Management’s Response. The Office of External Relations concurred and will issue
   an annual notice to Agency officials asking them to identify NASA-sponsored
   committees that may be subject to FACA. The Office of External Relations will also
   work with Agency sponsors to ensure identified committees comply with FACA
   requirements.

   Evaluation of Management’s Response. Management’s comments are responsive.
   The recommendation is resolved and will be closed upon completion and verification
   of management’s corrective action.

We request that the Associate Administrator for PA&E provide additional comments on
Recommendations 1.a, 1.b, and 1.c in response to this final memorandum. The additional
comments should address how the Agency plans to reorganize the SRB so that it does not
trigger FACA, the potential impact of not having the SRB provide a consensus opinion,
and how NASA plans to mitigate the organizational conflicts of interest for the Orion
SRB members. We request that management provide the additional comments by
May 28, 2008.
                                                                                        18



We appreciate the courtesies extended during our audit. If you have any questions, or
need additional information, please contact Ms. Carol Gorman, Space Operations and
Exploration Director, at 202-358-2562.


   (signed) A. Dahnelle Payson for
Evelyn R. Klemstine

5 Enclosures

cc:
Director, Independent Program Assessment Office
Chief Counsel, Langley Research Center
                              Scope and Methodology
We performed this audit from June 2007 through April 2008 in accordance with
generally accepted government auditing standards. Those standards require that we plan
and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based on
our audit objectives. We performed audit fieldwork at NASA Headquarters, Johnson
Space Center, and Langley Research Center.

This memorandum is the first in a series of reports on our audit of the Orion Crew
Exploration Vehicle Project. The overall objective for the audit was to evaluate
management’s efforts to ready the Orion for the “Preliminary Design and Technology
Completion” phase of its acquisition (Phase B). During our evaluation, we identified
issues with the establishment and organization of the Orion SRB, which we address in
this memorandum. We plan to issue two additional reports related to the overall audit
objective. The first will address the management of the System Requirements Review
and the System Definition Review; the second will address the development of Orion
safety and human-rating requirements.

To determine whether NASA had established and operated the Orion SRB in accordance
with Federal and NASA guidance, we reviewed the following Federal and NASA laws,
policies, and requirements:

   •   Title 5 of the United States Code, Appendix 2, Sections 1–16, the Federal
       Advisory Committee Act (1972), as amended;

   •   Title 18, United States Code, Part 1, Chapter 11, Section 208 (18 U.S.C. 208),
       effective as of January 3, 2005;

   •   FAR Subpart 9.5;

   •   NPD 1150.11;

   •   NPR 7120.5D;

   •   NPR 7123.1A, “NASA Systems Engineering Processes and Requirements,”
       March 26, 2007;

   •   Memorandum, “NASA Interim Guidance for Standing Review Boards,”
       December 21, 2006;

   •   NASA’s “Terms of Reference for the Independent Life-Cycle Review of the
       Orion Project,” February 2, 2007; and

   •   IPAO’s draft SRB Handbook.

                                                                              Enclosure 1
                                                                              Page 1 of 3
To determine whether the Orion SRB Chair and its members were independent of the
Orion Project, we reviewed the following documents:

   •   Langley Office of Chief Counsel’s review of SAIC’s OCI Mitigation Plan,
       July 26, 2007;

   •   OCI Mitigation Plan;

   •   SAIC Team, Final Proposal Revision, “Organization Conflict of Interest
       Avoidance/Mitigation,” April 7, 2000;

   •   Nomination and approval letters and related e-mails concerning the SRB Chair
       and members (December 2006 through March 2007);

   •   “Personal, External, and Organizational Independence, and Political Influence
       Self-Assessment” forms submitted by the SRB Chairs and members (2007); and

   •   Task Orders NNL07AB87T (February 2007) and NNL07AB89T (February 2007)
       for providing the review Chair and team members under Langley Blanket
       Purchase Agreement NNL04AA00Z with SAIC (November 2003).

We also interviewed Agency, Federal, and contractor officials, including

   •   Office of Government Ethics representative,

   •   Headquarters OGC and Langley Office of Chief Counsel representatives,

   •   Headquarters Office of External Relations’ NASA Advisory Committee Officer,

   •   Langley contract officer for the blanket purchase agreement with SAIC,

   •   NASA IPAO Director and personnel,

   •   Orion SRB Chairs (interim and permanent), and

   •   SAIC representatives.

To determine whether any potential conflicts of interest existed, and whether FACA
applied to the SRB, we obtained a legal opinion from the Office of Counsel to the
Inspector General. The OIG legal staff reviewed pertinent case law and participated in
our interviews with Agency and contractor officials.

Computer-Processed Data. We did not use computer-processed data to perform this
portion of the audit.




                                                                             Enclosure 1
                                                                             Page 2 of 3
Review of Internal Controls. We reviewed and evaluated the internal controls
associated with the establishment and operation of the Orion SRB. We identified
weaknesses in SRB oversight activities, specifically in the applicability of FACA to
the SRBs and the independence of SRB members. Implementing the recommendations
in this memorandum should improve the internal controls over the SRBs.

Prior Coverage. During the last 5 years, the Government Accountability Office (GAO)
issued one report of particular relevance to the subject of our audit: “Federal Advisory
Committee Act: Issues Related to the Independence and Balance of Advisory
Committees” (GAO-08-611T, April 2, 2008). Unrestricted GAO reports can be accessed
over the Internet at http://www.gao.gov.




                                                                             Enclosure 1
                                                                             Page 3 of 3
                  Life Cycle of a NASA Space Flight Project
The following figure shows the complete life cycle of a NASA space flight project. Our
audit of the Orion Project focused primarily on Phases A and B of the life cycle.




                                                           Source: NPR 7120.5D (figure 2-4)



Acronyms
FAD      Formulation Authorization Document
KDP      Key Decision Point (for the Orion Project, KDP B is scheduled for
           April 29, 2008)
NAR      Non-Advocate Review
PDR      Preliminary Design Review
PNAR     Preliminary Non-Advocate Review
SDR      System Definition Review
SRR      System Requirements Review




                                                                             Enclosure 2
                                                                             Page 1 of 1
                          SRB Member Self-Assessment
   Personal, External, and Organizational Independence, and Political Influence
                                Self-Assessment


Instructions to potential team member:

   1. Read the following questions in each section below and assess your personal
      situation as it applies to the review team for which you are being considered.
   2. Check the appropriate response.
   3. If your response is “yes,” please provide a detailed explanation of the
      circumstances for the specific situation that may impair you. While a “yes”
      answer will not automatically disqualify you from consideration, a review
      committee will consider your response(s) to determine your fitness for
      participation. Hence, a detailed explanation for each “yes” response is necessary
      to render and informed decision.

When you have completed the self-assessment, sign, date, and fax this form to Michelle
Calloway 757-864-3927.


Disclosed impairments are not automatic grounds for disqualifying a potential team
member from serving on an independent review team. Upon adjudication, the IPAO
team lead will make a recommendation to the IPAO Director who make the final
determination and approve/disapprove each candidate’s membership.


I. Personal Independence

Conflicting Financial Interests

Will the contemplated consulting work in support of a particular program or project
review have an effect on your own personal financial interests? Are you a stockholder in
a company that receives funding from the program or project being reviewed? Do you
own a patent or hold a copyright to a product or service or invention that is being
considered for use by a program or project being reviewed? You also must be concerned
about the financial interests of your spouse, your minor children, and outside persons or
businesses that employ you. You should be concerned if anything you are asked to work
on would affect them.


  No.     Yes. [Explain circumstances in detail and use additional sheets if necessary]:
_________________________________________________________.



                                                                             Enclosure 3
                                                                             Page 1 of 4
Seeking Other Employment

Are you job-hunting, seeking employment or engaged in discussions with an
organization, contractor, business entity or prospective new employer that could directly
benefit from the program or project being reviewed? Have you received an offer of
employment from a NASA contractor, subcontractor, or grantee in connection with a
program or project being reviewed by NASA?


   No.        Yes. [Explain circumstances in detail and use additional sheets if
necessary]: _________________________________________________________.


Outside Activities and Public Speaking

Have you ever written an article, published a paper, or taught a class that expresses a
personal opinion, advocates a viewpoint, or proffers a professional judgment on the
merits of the program or project being reviewed, or on the merits of the products and
services associated with the program or project being reviewed? Do you belong to or are
you a member of an organization that receives charitable contributions, gifts, monies,
compensation, or honorariums from a contractor or person(s) that directly benefit from
the program or project being reviewed?


   No.        Yes. [Explain circumstances in detail and use additional sheets if
necessary]: _________________________________________________________.


II. External Independence

Impartiality in Performing Official Duties

Will the contemplated consulting work being performed in support of a particular
program or project review give rise to an “improper appearance,” that is, make a
reasonable person who knew the circumstances of the situation (and had knowledge of
the facts) legitimately question your fairness? For example, your fairness might
reasonably be questioned if you were to perform an independent assessment of a program
or project that could directly benefit a family member, relative, friend, or business
partner.


   No.        Yes. [Explain circumstances in detail and use additional sheets if
necessary]: _________________________________________________________.



                                                                              Enclosure 3
                                                                              Page 2 of 4
Undo Influence and Coercion

Do you feel you are unable to perform your work unfettered, uncompromisingly, openly,
and effectively and free from schedule pressures, resource constraints, and opposing
institutional, organizational or cultural forces? Do you feel you are unable to perform
your work unfettered, uncompromisingly, openly, and effectively without fear of
retribution, intimidation, threat, or prohibited personnel practices, including reprisal for
whistle-blowing, as defined by law at § 2302(b) of title 5 of the United States Code
(U.S.C.)?


   No.        Yes. [Explain circumstances in detail and use additional sheets if
necessary]: _________________________________________________________.



III. Organizational Independence

Current or Former Employee

Have you ever been a superior or subordinate of an employee of a program or project
being reviewed? Have you ever directly worked for the program or project being
reviewed or been an employee of a contractor that receives funding from the program or
project being reviewed?


   No.        Yes. [Explain circumstances in detail and use additional sheets if
necessary]: _________________________________________________________.


IV. Political Influence

Do you serve as an officer, director, or trustee of a for-profit organization or a non-profit
political advocacy group or do you belong to or support a political party, lobby,
association, organization, group, or action committee that seeks to advance, promote or
advocate legislation in support of a program or project being reviewed?


   No.         Yes. [Explain circumstances in detail and use additional sheets if
necessary]: _________________________________________________________.




                                                                                 Enclosure 3
                                                                                 Page 3 of 4
V. Certification:

I, ________________, have completed this self-assessment of my fitness to serve on the
Orion Crew Exploration Vehicle Project Standing Review Board. I have read and
answered all the questions and I certify that the statements I have made on this form and
all attached statements are true, complete, and correct to the best of my knowledge.

_____________________________               ____________________
Signature                                   Date




                                                                              Enclosure 3
                                                                              Page 4 of 4
Management’s Comments




                        Enclosure 4
                        Page 1 of 3
              Page 5




              Page 7

              Revised




              Page 7

              Second
              sentence
              deleted




Enclosure 4
Page 2 of 3
              Page 7




Enclosure 4
Page 3 of 3
Additional Management’s Comments




                                   Enclosure 5
                                   Page 1 of 4
Enclosure 5
Page 2 of 4
Enclosure 5
Page 3 of 4
Enclosure 5
Page 4 of 4
